                                                             NATIONAL SCIENCE FOUNDATION
                                                              OFFICE OF INSPECTOR GENERAL
                                                               OFFICE OF INVESTIGATIONS

                                                      CLOSEOUT MEMORANDUM

 Case Number: 1-09-02-0006                                                                           Page 1 of 1



         We received information from a university 1 that a former employee2 (subject) misused
         institutional purchase cards that were tied to federal awards- including an NSF award. 3

         Our investigation substantiated that the subject made personal purchases using the university
         purchase cards and then charged those purchases to federal awards. The matter was referred to
         the Maricopa County Attorney's office. On March 25, 2010, subject pled guilty to felony theft
         charges. (Attachment 1)
                                                                                                 (


          On April28, 2010, subject was sentenced to 3 years probation and ordered to pay $75,0004 in
          restitution. (Attachment 2)

          The universityreimbursed NSF 5 and instituted new policies and procedures to insure proper
          oversight ofNSF funds in the future.

          We recommended that NSF debar the former employee for a period of three years. On February
          22,2012, NSF debarred the subject until February 10, 2015. (See Attachment 3)

         Accordingly, this investigation is closed.




          2


          4
              This figure represents the total monetary harm Subject caused to the university.
          5
              $51,688 which included $17,114 in indirect charges




NSF OIG Form 2 (I 1/02)
I,
                                                                                     Michael K. Jeanes, Clerk of Court
                                                                                       ***Electronically Filed***
                                                                                          04/05/2010 8:00AM
                                          SUPERIOR COURT OF ARIZONA
                                              MARICOPA COUNTY                                                  I   I




.CR2009-007630-001 DT                                                             03/25/2010
 1




                                                                          CLERK OF THE COURT
 \COMMISSIONER PHEMONIA L. MILLER                                              I. Kosaka
'I  ".                                                                          Deputy


 I
 STATE OF ARIZONA                                                 ERJCYUVA
 ·I
 'I


vI . .I

 ·I
     i
CCHARLOTTE HELEN OSHEA (001)                                      MELISSA M LABOR
 r              ,                                                                                                        ·/

      I
      i
                                               .                  APO-PLEAS-CCC
      !   I
                                                                  JUDGE FLORES
          I                                                       VICTIM SERVICES DIV-CA-CCC




                                     PLEA AGREEMENT/CHANGE OF PLEA



                  8:48a.m.

                  Courtroom CCB802

                  State's Attorney:             Kristen Stewart
                  Defendant's Attorney:         Melissa Zabor
                  Defendant:                    Present

                  A record of the proceedings is made by audio and/or videotape in lieu of a court reporter.

      Defendant was present for the group advisement given on the record at 8:40 a.m. this date
              :
              1
in CCB802.

         The Court reviews the Plea Agreement with Defendant. The Court advises Defendant of
              1

the,lrange of possible sentence and the availability of probation, and any special conditions of
sen:tencing and probation. The Court advises Defendant of all pertinent constitutional rights and
rigHts of review.
Do~ket
   !
       Code 105                                       Form Rl05                                        Page 1
                                   ()
                                   ·-



                                        SUPERJOR COURT OF ARJZONA
                                            MARICOPA COUNTY

    CR1009-007630-001 DT                                                 03/25/2010



              Defendant enters a plea of Guilty to the following:

              OFFENSE: Count 1 (as amended): Theft
              Class 5 Felony
              A.R.S. § 13-1801, 1802, 701, 702, 702.01 and 801
              Date of Offense: On or between June 27, 2002 and November 19, 2007
              Non Dangerous- Non Repetitive

              IT IS ORDERED accepting the plea.

              IT IS ORDERED setting time for sentencing on 04/28/2010 at 8:30a.m. before Judge
    Flores.

           IT IS FURTHER ORDERED that the following will be deemed submitted at the time of
1   sentencing: Motion To Dismiss Count 2. Allegation of multiple offenses as reflected in the Plea
    Agreement.

           IT IS ORDERED the Adult Probation Department shall prepare a Presentence Report,
    and that Defendant shall report to the Adult Probation Department today.

              IT IS ORDERED vacating any pending dates.

              IT IS FURTHER ORDERED affirming prior release orders.

              8:54a.m. Matter concludes.




IDocket Code 105                                 Form Rl05                                  Page 2
                                                                             ()

                                                                             Michael K. Jeanes, Clerk of Court
                                                                                      ***Filed ***
                                                                                  05/04/2010 8:00AM
                                     SUPERIOR COURT OF ARIZONA
                                         MARICOPA COUNTY

   ~CR2009-007630-00I DT
                                                                         04/28/2010


                                                                    CLERK OF THE COURT
  HONORABLE LISA DANIEL FLORES
  .~                                     0                               I. Carlson
                                                                           Deputy



  STATE
  i
        OF ARIZONA                                           ERICYUVA
  y.


                                                             MELISSA M ZABOR

                                                             APO-SENTENCINGS-CCC
                                                             APPEALS-CCC
                                                             DISPOSITION CLERK-CSC
                                                             FINANCIAL SERVICES-CCC
                                                             RFR
                                                             VICTIM SERVICES DIV-CA-CCC




                          SUSPENSION OF SENTENCE- PROBATION GRANTED

            8:43a.m. This is the time set for Sentencing.

           State's Attorney:             Vic Cook for Eric Yuva
           Defendant's Attorney:         Melissa M. Zabor
           Defendant:                    Present
           Court Reporter:               Luz Franco

           Jodi Preudhomme makes statements to the Court on behalf of the victim.

       Count(s) 1: WAIVER OF TRIAL:                The Defendant knowingly, intelligently and
volfntarily waived all pertinent constitutional and appellate rights and entered a plea of guilty.

           IT IS THE WDGMENT of the Court Defendant is guilty of the following:

           OFFENSE: Count 1 (as amended) Theft
       '
Dotket Code 109                              Form Rl09B-04
   I                                                                                        Page 1
                                                                                 n
                                       SUPERIOR COURT OF ARIZONA
                                           MARICOPA COUNTY

       CR2009-007630-001 DT                                                      04/28/2010


               Class 5 Felony
               A.R.S. § 13-1801, 1802, 701, 702, 702.01 and 801
               Date of Offense: committed on or between June 27, 2002 and November 19, 2007
               Non Dangerous- Non Repetitive

              IT IS ORDERED suspending imposition of sentence and, under the supervision of the
     , Adult Probation Department (APD), placing the defendant on probation for:
                                        \



               Count 1 Probation Term: 3 years

               To begin April28, 2010.

               Conditions of probation include the following:

               Condition 16- Restitution, Fines, and Fees:

               PROBATION SERVICE FEE: Count 1-$65.00 per month, beginning July 1, 2010.
 I
 i             RESTITUTION: Count 1 - $75,000.00 payable $500.00 per month, beginning July 1,
.j     2010,      fo
 I
                                       (Business)   $75,000.00

               Restitution ledger provided; priority. of payment as stated in the restitution ledger.

               ASSESSMENTS:

               Count 1: PROBATION SURCHARGE: $10.00.

               Count 1: Time payment fee pursuant to A.R.S. § 12-116 in the amount of $20.00.

               All amounts payable through the Clerk of the Superior Court.

               Condition 18 -Not have any contact with the victim(s) whatsoever, unless approved in
       writing by the Adult Probation Department
                                                                  r·.
                                                                  '
               Condition 25 - Abide by the Special Conditions of Probation as noted on the attachment
     ' to the Uniform Conditions of Supervised Probation.

               Condition 26 - Other: Notify present and future employers, in writing, of the nature of
     : this offense.
      · Docket Code 109                           Form Rl09B-04                                         Page 2
                                                                          ()


                                SUPERIOR COURT OF ARIZONA
                                    MARICOPA COUNTY

                                                                        04/28/2010
' CR2009-007630-00 1 DT



         IT IS ORDERED granting the Motion To Dismiss the following: Count 2 and allegation
  of multiple offenses.

         IT IS ORDERED exonerating any bond previously posted in this matter to the party
  posting same.
         IT IS FURTHER ORDERED that Defendant must submit to DNA testing for law
i enforcement identification purposes and pay the applicable fee for the cost of 'that testing in
· accordance with A.R.S. § 13-610.

          8:59a.m. Marter concludes.

          This case is eFiling eligible: http://www.clerkofcourt.maricopa.gov/efiling/default.asp




                                             Form·R109B-04                                    Page 3
   Docket Code 109
                                                              ()


                              SUPERIOR COURT OF ARIZONA
                                  MARICOPA COUNTY

 CR2009-007630-001 DT                                       04/28/2010




                              Is/ HONORABLE LISA DANIEL FLORES
                              JUDGE OF THE SUPERIOR COURT


' (right index fingerprint)




 Docket Code 109                      Form R109B-04                      Page 4
                                 NATIONAL SCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230



                                           FEB 2 2 2Gl2

      OFFICE OF THE
        DIRECTOR




VriA CERTIFIED MAIL/RETURN RECEIPT REQUESTED
  '




       Re: Notice ofDebarment


Dear Ms. Doellman:.

0~ November 15, 2011, the National Science Foundation ("NSF") issued to you a Notice of
Proposed Debarment ("Notice"), in which NSF proposed to debar you from directly or indirectly
   r
obtaining the benefits of Federal grants for a period ofthree years. As reflected in the Notice,
NSF proposed your debarment because you pleaded.            to a        of felony theft in
connection with your previo~s employment                                              y, you
mi~appropriated Federal grant funds for your personal use. In that Notice, NSF provided you
wifu thirty days to respond to the proposed debarment.
OvFr thirty days have elapsed and NSF has not received a response. Accordingly, you are
deBarred
   I
         until February 10, 2015. Debarment precludes you from receiving Federal fmancial ·
and non-financial assistance and benefits under non-procurement Federal programs and activities
unl~ss
   I
       an agency head or authorized designee makes a determination to grant an exception in
accordance with 2 CFR 180.135. Non-procurement transactions include grants, cooperative
agreements,
    I
             scholarships, fellowships, contracts of assistance, loans, loan guarantees, subsidies,
inso/ance, payments for specified use, and donation agreements.

In addition, you are prohibited from receiving Federal contracts or approved subcontracts under
the Federal Acquisition Regulations at 48 CFR Subpart 9.4 for the period of this debarment.
2 CFR 180.925. During the debarment period, you may not have supervisory responsibility,
pri~ary management, substantive control over, or critical influence on, a grant, contract, or
cooplerative agreement with any agency of the Executive Branch ofthe Federal Government.
                                                                                            - 2

Should you have any uestions regarding the foregoing, please vul.''"'"'               Assistant
General Counsel, at




                                                   . Sincerely,



                                                     Wanda Ward
                                                     Senior Advisor to the Director




              l
